IN THE
SUPREME COURT OF THE UNITED STATES

No. _____

ALFREDO CAMARGO,
Petitioner,
v.
DAVID SHINN, DIRECTOR, ARIZONA DEPARTMENT OF CORRECTIONS;
ATTORNEY GENERAL FOR THE STATE OF ARIZONA,
Respondents.

CERTIFICATE OF SERVICE

Pursuant to Rule 29 of the Rules of this Court, I, Molly A. Karlin, a member
of the bar of this Court, hereby certify that, on October 12, 2021, I caused the
attached Petition for a Writ of Certiorari and Motion for Leave to Proceed in Forma
Pauperis to be filed electronically in this Court. I further certify that an original
and ten copies of the Petition for a Writ of Certiorari, together with an original and
ten copies of the Motion for Leave to Proceed in Forma Pauperis, were given to
Federal Express, postage prepaid, for delivery to:
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543

I also certify that I caused one copy of each of the above-mentioned
documents to be served the same date by first class mail on:
ERIN BENNETT
JIM NIELSEN
Assistant Attorney Generals
Arizona Attorney General’s Office
2005 N. Central Avenue
Phoenix, Arizona 85004-2926
(602) 542-5025
Counsel for Respondents
I further certify that all parties required to be served have been served.

s/ Molly A. Karlin
MOLLY A. KARLIN
Assistant Federal Public Defender
Counsel of Record
850 West Adams Street, Suite 201
Phoenix, Arizona 85007
molly_karlin@fd.org
(602) 382-2700

2

